GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814

January 9, 2020
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First St., NE
Washington, D.C. 20543
Re: No. 19-605, Arizona v. Philip John Martin
Dear Mr. Harris,
I am writing on behalf of respondent to request an extension of time in which to file the
opposition to the petition for a writ of certiorari in this case. The petition was filed on November
7, 2019; respondent waived his right to respond on December 4, 2019; and the Court requested a
response on January 6, 2020. The response is currently due, with no extensions, on February 5,
2020. I am requesting one 30-day extension, through March 6, 2020. An extension of that length
will permit new counsel for respondent to review and respond to the petition and is necessary due
to the press of other business before this Court and other courts.
Please let me know if you require any further information. Thank you very much for your
time and assistance.
Very truly yours,

Sarah E. Harrington

cc: Petitioner’s counsel

(202) 362-0636
(866) 574-2033 fax

www.goldsteinrussell.com

